APPENDIX

APPENDIX A
COMMONWEALTH OF MASSACHUSETTS
SUFFOLK, ss.

SUPERIOR COURT
CIVIL ACTION
NO. 16-01248

MARIANNE BAPTISTE, individually and as legal
guardian and next friend1 & another2
vs.
MASSACHUSETTS EXECUTIVE OFFICE OF
HEALTH AND HUMAN SERVICES & others3
MEMORANDUM OF DECISION AND ORDER ON
DEFENDANTS’ MOTION TO DISMISS
The plaintiffs, Marianne Baptiste and Gregory
Williams, Sr., brought this action to recover damages
against the defendants, the Massachusetts Executive
Office of Health and Human Services (“EOHHS”), the
Department of Youth Services (“DYS”), Volunteers of
America of Massachusetts, Inc. (“VOAMA”), and
certain of their employees after a DYS- committed
juvenile injured their son, Gregory Williams, Jr.,
while he was in DYS custody at the Casa Isla Short1

To Gregory Williams, Jr.

2

Gregory Williams, Sr.

The Secretary of the Massachusetts Executive Office of Health
and Human Services; the Department of Youth Services; the
Commissioner of the Department of Youth Services; the
Regional Director of the Department of Youth Services; Certain
Unknown Individual Employees of Department of Youth
Services; Volunteers of America of Massachusetts, Inc.; Theresa
Conti; Matthew Marrano; Michael Shanks; Jalise Andrade;
Avanell Peters; Jaasiel Gomes; Hermano Joseph; Certain
Unknown Individual Employees of Volunteers of America of
Massachusetts, Inc.; and Douglas K. Chin.
3

1a

term Treatment and Revocation Center (“Casa Isla”).
The defendants EOHHS, the EOHHS Secretary,
DYS, DYS’s Commissioner, and DYS’s Regional
Director
(collectively,
the
“Commonwealth
Defendants”), have moved to dismiss the claims
against them. For the reasons stated below, the
motion is ALLOWED.
BACKGROUND
As I must on a motion to dismiss under Rule
12(b)(6), I accept as true all of the factual allegations
in the plaintiffs’ complaint.
Casa Isla, located on Long Island in Boston
Harbor, was a staff-secure facility for juvenile males
operated by VOAMA, a non-profit entity. VOAMA
also ran a second residential program on Long Island
in a separate facility called “Project Rebound,” a
residential drug and alcohol recovery program for
juvenile males exhibiting behavioral or emotional
problems and/or recovering from substance abuse
(“Project Rebound”).
For approximately twenty years, VOAMA was
a support contract vendor under agreement with DYS
and EOHHS. Pursuant to the terms of their
agreement, VOAMA was required to comply with all
applicable laws and regulations, and to implement
policies and procedures equal to or better than those
of DYS to ensure a safe and secure environment to
residents. Among these regulations were: 109 Code
Mass. Regs. § 11.04 (2013), which authorizes
necessary medical care when there is a medical
emergency; 109 Code Mass. Regs. § 11.28 (2013),
which requires facility administrators to develop
written plans and procedures for the secure storage
and administration of medications; and 109 Code
Mass. Regs. § 11.26 (2013), which requires “[a]ll
2a

facility personnel responsible for the care and custody
of clients ... [to be] trained in emergency first-aid
procedures.”
EEOHS and DYS were responsible for the
oversight of VOAMA. A DYS audit in February 2013
stated that Casa Isla was not in compliance with the
required first-aid trainings and certifications of staff.
DYS had earlier documented this noncompliance in
2010 and 2012, and DYS directed Casa Isla to rectify
it immediately. An audit completed in March 2014
noted that the failure of Casa Isla staff members to
attend some required trainings had been a consistent
problem since 2010. The plaintiffs assert that DYS’s
Commissioner and Regional Director disregarded
VOAMA’s noncompliance with safety requirements.4
On May 21, 2012, the plaintiffs’ son, Gregory
Williams, Jr. (“Gregory”), was adjudged a Youthful
Offender pursuant to G. L. c. 119, § 58(c), and was
committed to DYS’s custody and care. On March 25,
2013, following a series of placements, Gregory was
transferred to Casa Isla.
On April 19, 2013, Gregory participated in a
flag football game between residents of Casa Isla and
Project Rebound. During the football game, at
approximately 12:00 p.m., a Project Rebound
resident, defendant Douglas Chin, ran towards
Gregory and struck him, including on the left side of
his throat and jaw, several times with a closed fist.
Earlier that day, Chin had stated that he wanted to

The complaint does not specifically allege that DYS’s
Commissioner and Regional Director were aware of the results
of the audits.
4

3a

get kicked out of Project Rebound and these
statements were known to Project Rebound staff.5
Two staff members, both from Casa Isla, were
present and supervising the game at the time of the
incident. They and a Project Rebound supervisor, who
was radioed to the scene to assist, stopped Chin’s
attack.
At the lunch immediately following the game
and on two occasions thereafter, Gregory complained
of a headache to Casa Isla staff.6 A VOAMA staff
member gave him ibuprofen. No one took Gregory to
see the nurse on staff or to the hospital. At
approximately 5:00 p.m., Gregory told a staff member
that, in addition to his headache, he also was
experiencing severe pain on his right side, and asked
to see a nurse. The staff member noted that Gregory
was experiencing facial asymmetry, right side
weakness, and trouble speaking, and contacted
Boston Emergency Medical Services (“EMS”) around
5:10 or 5:15 p.m. Boston EMS arrived at 5:40 p.m. and
transferred Gregory to Boston Medical Center
(“BMC”). Gregory suffered a traumatic carotid artery
dissection and occlusion resulting in a middle cerebral
artery stroke, seizures, and cerebral edema. As a
result, he now suffers from permanent and severe
brain damage. Gregory currently resides in a
The complaint also alleges that Chin stated that he wanted to
punch someone so that he would be discharged and that he was
going to attack the “big one,” referring to Gregory. However, the
complaint does not allege that Chin made these statements to
VOAMA staff, or that VOAMA staff knew of the statements as
of the time of Chin’s attack.
5

The complaint alleges that Gregory complained of a headache
on other occasions that afternoon, but the complaint does not
allege that these other statements were made to, or known by,
VOAMA staff.
6

4a

residential program and requires twenty-four-hour
care.
Casa Isla’s program director conducted an
internal investigation of the incident. The resulting
report indicates that the staff had not followed certain
procedures required by Casa Isla or DYS standards.
For example, staff incorrectly entered information
related to the incident in a log book and failed to
retain copies of Gregory’s medical records sent to
BMC. The report recommended that Casa Isla
discontinue the practice of permitting joint sporting
events with Project Rebound unless DYS provides
specific permission to do so.
DISCUSSION
The plaintiffs assert three claims against the
Commonwealth Defendants: a claim pursuant to 42
U.S.C. § 1983 for failure to provide adequate medical
care against DYS’s Commissioner and Regional
Director (Count II); a negligence claim pursuant to
the Massachusetts Torts Claims Act (“MTCA”), G. L.
c. 258, against EOHHS, the EOHHS Secretary, and
DYS (Count IV); and a loss of consortium claim
against all of the Commonwealth Defendants (Count
IX).7 Pursuant to Mass. R. Civ. P. 12(b)(6), the
Commonwealth Defendants move to dismiss Counts
II and IV in their entirety and Count IX as to them.
I.

Standard of Review

In considering a motion to dismiss under Mass.
R. Civ. P. 12(b)(6), the court “accept[s] as true the
allegations in the complaint and draw[s] every
The plaintiffs also make these claims against certain unknown,
individual employees of DYS. However, the Commonwealth does
not represent those unnamed defendants and did not bring its
motion to dismiss on their behalf. See Defs.’ Mot. at 4 n. 1.
7

5a

reasonable inference in favor of the plaintiff.” Curtis
v. Herb Chambers 1-95, Inc., 458 Mass. 674, 676
(2011). To survive a motion to dismiss, the complaint
must set forth “factual allegations plausibly
suggesting (not merely consistent with) an
entitlement to relief.” Iannacchino v. Ford Motor Co.,
451 Mass. 623, 636 (2008) (internal quotations
omitted), quoting Bell Atl. Corp. v. Twombly, 550 U.S.
544, 557 (2007). Detailed factual allegations are not
required; nevertheless, “a plaintiffs obligation to
provide the grounds of entitle[ment] to relief requires
more than labels and conclusions .... Factual
allegations must be enough to raise a right to relief
above the speculative level ... [based] on the
assumption that all the allegations in the complaint
are true (even if doubtful in fact) ....” Id. (Internal
quotations omitted) (alterations in original), quoting
Twombly, 550 U.S. at 555.
II.

Section
1983
Claim
Against
DYS’s
Commissioner and Regional Director (Count II)

In Count II, the plaintiffs assert that DYS’s
Commissioner and Regional Director (“DYS
Defendants”) are liable in their official and personal
capacities under 42 U.S.C. § 1983 because they failed
to provide adequate and appropriate medical care to
Gregory.8 The DYS Defendants move to dismiss this
claim on the grounds that the plaintiffs improperly
base their claim on a respondeat superior theory that
is inapplicable to § 1983 claims. While the DYS
Defendants may be liable as supervisors, the

To the extent that the plaintiffs allege constitutional violations
other than a failure to provide adequate medical care, the court
does not address them because they are not alleged in the
complaint. See Compl. ¶¶ 162-166.
8

6a

complaint’s allegations are insufficient to support
such a claim.
To succeed on a § 1983 claim, a plaintiff must
establish: “(1) that the complained-of conduct was
committed under the color of state law, and (2) that
such conduct violated his constitutional or federal
statutory rights.” Miller v. Town of Wenham, 833 F.3d
46, 51 (1st Cir. 2016). See Gomez v. Toledo, 446 U.S.
635, 640 (1980) (in order to state a cause of action
under § 1983, plaintiff is only required to raise these
two allegations). As a general rule, “the tort theory of
respondeat superior does not allow imposition of
supervisory liability under § 1983.” Ramirez-Lluveras
v. Rivera-Merced, 759 F.3d 10, 19 (1st Cir. 2014).
However, a supervisor may still be held liable for the
constitutional violations of his or her subordinates
“where ‘an affirmative link between the behavior of a
subordinate and the action or inaction of his
supervisor exists such that the supervisor’s conduct
led
inexorably
to
the
constitutional
violation.’”Morales v. Chadbourne, 793 F.3d 208, 221
(1st Cir. 2015), quoting Maldonado v. Fontanes, 568
F.3d 263, 275 (1st Cir. 2009). This affirmative link can
be demonstrated when “a responsible official
supervises, trains or hires a subordinate with
deliberate indifference toward the possibility that
deficient performance of the task eventually may
contribute to a civil rights deprivation.” Id., quoting
Sanchez v. Pereira-Castillo, 590 F.3d 31, 49 (1st Cir.
2009). See Guadalupe-Baez v. Pesquera, 819 F.3d
509, 515 (1st Cir. 2016) (affirmative link requires
conduct that can be characterized as “supervisory
encouragement, condonation, or acquiescence or gross
negligence amounting to deliberate indifference”). In
order to establish deliberate indifference, there must
be a “known history of widespread abuse sufficient to
7a

alert a supervisor to ongoing violations,” as opposed
to “isolated instances of unconstitutional activity”
Ramirez-Lluveras, 759 F.3d at 20, quoting
Maldonado-Denis v. Castillo-Rodriguez, 23 F.3d 576,
582 (1st Cir. 1994).
The plaintiffs’ § 1983 claim is premised on the
assertion that the DYS Defendants were aware of
VOAMA employees’ noncompliance with the safety
regulations through the DYS audits and that the DYS
Defendants did not take appropriate steps to rectify
that known noncompliance. The plaintiffs argue that
the DYS Defendants allowed DYS-committed youth to
remain in VOAMA’s care despite these known safety
risks and, as a result, Gregory received inadequate
medical care while in DYS custody in violation of his
Eighth Amendment rights. The plaintiffs’ claim fails
for two reasons.
First, the plaintiffs fail to allege sufficient facts
to suggest that the DYS Defendants were on notice of,
and
were
deliberately
indifferent
to,
the
constitutional violation alleged. The plaintiffs allege
only that the DYS Defendants were aware of
VOAMA’s noncompliance with the requirement that
all facility personnel responsible for the care and
custody of youth have emergency first-aid training, as
set forth in 109 Code Mass. Regs. § 11.26, through the
2010, 2012, and 2013 audits.9 The alleged notice of
Although plaintiffs also allege that VOAMA staff who
supervised Gregory failed to comply with other regulations after
the incident at issue, their complaint contains no allegation that
the VOAMA staff failed to comply with these regulations before
or at the time of the incident or that the DYS Defendants were
on notice of any such noncompliance. Guadalupe-Baez, 819 F.3d
at 515 (supervisor must have actual or constructive notice of
unconstitutional conditions); Ramirez-Lluveras, 759 F.3d at 20
(same).
9

8a

this failure to adhere to one safety regulation does not
plausibly suggest that the DYS Defendants were on
notice of a substantial risk of the constitutional
violation alleged. See Ramirez-Lluveras, 759 F.3d at
20-22 (finding that police officer’s disciplinary record
that included seven instances of alleged misconduct,
including one domestic violence claim, over fourteen
years insufficient to put supervisors on notice of
substantial risk of shooting arrestee).
Second, the plaintiffs also fail to allege any
causal connection between VOAMA’s alleged
noncompliance with 109 Code Mass. Regs. § 11.26 and
Gregory’s injuries. Id. at 19 (strong causal connection
is required). The complaint does not allege that any
facility personnel who supervised Gregory on the day
of the incident had not received the required
emergency first aid training. It merely alleges
generally that the DYS Defendants were on notice
that some VOAMA staff had not received such
training in the past and that the failure of VOAMA
staff members to administer proper emergency first
aid treatment on the day of the incident worsened
Gregory’s injuries. Stated another way, the plaintiffs
have failed to allege any affirmative link between the
DYS Defendants’ alleged conduct, and the alleged
violation of Gregory’s Eighth Amendment right to
adequate medical care. See, e.g., Guadalupe-Baez,
819 F.3d at 515 (“[C]ausal link between a supervisor’s
conduct and the constitutional violation must be
solid.”); Maldonado-Denis v. Castillo-Rodriguez, 23
F.3d 576, 582 (1st Cir. 1994) (“To succeed on a
supervisory liability claim, a plaintiff ... must
affirmatively connect the supervisor’s conduct to the
subordinate’s violative act or omission.”).
Because the complaint fails to allege sufficient
facts to support the plaintiffs’ claim that the DYS
9a

Defendants were deliberately indifferent to a known
constitutional violation, the DYS Defendants’ motion
to dismiss the § 1983 claim against them in Count II
is allowed.
III.

Negligence Claim Against EOHHS,
EOHHS Secretary, and DYS (Count IV)

the

During the hearing on the motion to dismiss,
the plaintiffs conceded that the EOHHS Secretary is
immune from suit pursuant to G. L. c. 258, § 2,
because she is a public employee acting within the
scope of her employment. Accordingly, the motion to
dismiss Count IV as to her is allowed.
I also allow the motion to dismiss as to DYS
and EOHHS because they are immune from suit
under G. L. c. 258, § 10(j). Section 10(j) of the MTCA
provides that the Commonwealth is immune from a
suit for “any claim based on an act or failure to act to
prevent or diminish the harmful consequences of a
condition or situation, including the violent or
tortious conduct of a third person, which is not
originally caused by the public employer or any other
person acting on behalf of the public employer.” A
harm is “originally caused” by a public employee when
the public employee undertakes an affirmative act
“that creates the circumstance which results in the
harm inflicted by the third party,” Jane J v.
Commonwealth, 91 Mass. App. Ct. 325, 328 (2017),
and “materially contribute[s] to creating the specific
‘condition or situation’ that resulted in the harm,”
Kent v. Commonwealth, 437 Mass. 312, 319 (2002).
An affirmative act is distinguishable from the failure
to prevent harm. A failure to prevent harm, as a
matter of law, is not the original cause of the harm for
the purposes of § 10(j). Jane J, 91 Mass App. Ct. at
328.
10a

Here, the injury at the center of the plaintiffs’
claim arose from the violent conduct of a third person,
Chin. The plaintiffs do not allege affirmative acts on
the part of the Commonwealth Defendants that
render § 10(j) immunity inapplicable. Rather, they
seek to recast certain failures to prevent harm as
affirmative acts sufficient to demonstrate that DYS
and EOHHS originally caused the situation or
condition that resulted in Gregory’s injury. The act of
placing Gregory in DYS custody constitutes only the
“failure [on the Commonwealth’s part] to prevent the
assailant from being in a position to attack the
plaintiff,” and is not an original cause of the harm at
issue.10 Brum v. Town of Dartmouth, 428 Mass. 684,
695 (1999). Similarly, any alleged failure by the
Commonwealth Defendants to enforce DYS policies
and regulations in relation to VOAMA was not an
affirmative act or the original cause of the harm. See,
e.g., id. (school’s failure to ensure student’s safety
when it was known that certain attackers planned to
retaliate against victim was not original cause of that
student’s death); Lawrence v. Cambridge, 422 Mass.
406, 409 (1996) (police’s failure to protect witness as
promised was not original cause of harm when
witness was shot while locking store, but police still
To the extent that the plaintiffs rely on Devlin v.
Commonwealth, 83 Mass. App. Ct. 530 (2013), to support their
10

position that the Commonwealth owes a heightened duty under
this analysis because Gregory was in state custody at the time
of the attack, the court disagrees. In Devlin, the court relied on
the Commonwealth’s violation of a statute that required the
state to house and treat persons civilly committed on an
involuntary basis separately from convicted criminals. See id. at
533 (citing G. L. c. 123, § 35). Here, the plaintiffs do not allege
that any statutory violation relating to the conditions of
confinement materially contributed to the original cause of the
harm.

11a

may be liable under exception to § 10(j)); Bonnie W v.
Commonwealth, 419 Mass. 122, 125 (1994) (parole
officer’s failure to supervise parolee under parole
board rules not original cause of injury when parolee
sexually assaulted resident at trailer park where he
worked); Jane J., 91 Mass. App. Ct. at 331 (hospital’s
failure to segregate patients by gender in recreation
room not original cause of female patient’s rape by
male patient); Jacome v. Commonwealth, 56 Mass.
App. Ct. 486, 490 (2002) (failures to close beach, to
post conspicuous warning signs, and of life guards to
remain on duty during their scheduled shift not
original cause of drowning). In sum, the plaintiffs
seek to impose liability on the Commonwealth
Defendants based on the Commonwealth’s alleged
failures to prevent Chin’s violent conduct. As a
matter of law, such failures cannot serve as the
original cause of the alleged harm as required by
§ 10(j).
Even if the court were to consider VOAMA staff
as “person[s] acting on behalf of the public employer”
under § 10(j), the complaint’s allegations would not be
sufficient to plausibly suggest that their conduct was
the original cause of the harm. Taken together, those
allegations amount merely to an allegation that
VOAMA staff failed to prevent Chin from harming
another youth during the game.11 See Brum, 428
The plaintiffs’ argument that the Commonwealth Defendants
are liable for the conduct of VOAMA under the theory of
“retained control” is similarly unavailing. In Ku v. Town of
Framingham, 62 Mass. App. Ct. 271, 275 (2004), the Appeals
Court distinguished the facts from those in Brum, 428 Mass. 684
and Kent, 437 Mass. 312, on the basis that the alleged wrongdoer
whose affirmative acts had caused the plaintiffs injury was
“acting on behalf of the public employer.” See Ku, 32 Mass. App.
Ct. at 275. Here, however, the plaintiffs essentially allege that
Chin’s affirmative acts proximately caused Gregory’s injury and
11

12a

Mass. at 696 (school not liable for failing to protect
student when informed that individuals planned to
come to school and retaliate against student).
Finally, the exceptions to § 10(j) immunity in
subsections (2) and (4) on which the plaintiffs rely do
not
apply.
Under
those
exceptions,
the
Commonwealth is not entitled to immunity if a claim
is “based upon the intervention of a public employee
which causes injury to the victim or places the victim
in a worse position than he was in before the
intervention,” G. L. c. 258, § 10(j)(2); or if the claim is
made “by or on behalf of a patient for negligent
medical or other therapeutic treatment received by
the patient from a public employee.” G. L. c. 258,
§ 10(j)(4). The complaint alleges that VOAMA’s
administration of ibuprofen to Gregory worsened his
condition, and in their brief, the plaintiffs also assert
that VOAMA and its staff may be public employees.12
that the Commonwealth failed to prevent it. The plaintiffs
nowhere allege that Chin acted on behalf of the Commonwealth.
None of the cases cited by the parties in the footnotes of their
supplemental briefs, see Defs. Resp. at 2 n.2; Pls.’ Supp. Br. at 2
n. l, supports the plaintiffs’ argument. The cases cited appear
distinguishable either because they do not address the issue of
whether an entity was a public employee, see Ku, 62 Mass. App.
Ct. at 273 (addressing whether an independent contractor was
acting “on behalf of a public employer,” not whether an
independent contractor was a public employee); Thornton v.
Commonwealth, 28 Mass. App. Ct. 511, 512 (1990) (parties
stipulated that DYS vendor was independent contractor); Rowe
v. Town of Arlington, 28 Mass. App. Ct. 389, 391 (1990) (plaintiff
did not challenge factual basis for court’s finding that work at
issue was done by independent contractor), or because they deal
with the fact-specific issue of whether a physician acts under the
direction and control of a public employer in his or her practice
of medicine based on the unique characteristics of that
profession, see, e.g., Kelley v. Rossi, 395 Mass. 659, 661 (1985)
(factual dispute as to whether resident employed by Boston City
12

13a

However, the complaint does not allege that any
public employee, as defined in G. L. c. 258, § 1,
intervened and put Gregory in a worse position, or
administered negligent medical treatment.13 Nor does
it allege facts that plausibly suggest that any VOAMA
staff member was a public employee.14
Thus, the Commonwealth Defendants’ motion
to dismiss Count IV is allowed.
IV.

Loss of Consortium Claim Against
Commonwealth Defendants (Count IX)

All

Because the parties agree that the loss of
consortium claim in Count IX is entirely derivative of
the claims in Counts II and IV, it likewise must be
dismissed as to the Commonwealth Defendants. See,
e.g., Short v. Town of Burlington, 11 Mass. App. Ct.
909, 909 (1981).

Hospital but on rotation at another hospital is public employee);
Smith v. Steinberg, 395 Mass. 666, 667 (1985) (no factual dispute
as to whether doctor and member of University of Massachusetts
Medical School group practice was public employee).
Unlike § 10(j) itself, which requires an affirmative act by a
public employee or a person acting on behalf of a public
employer, the exceptions require that the action be taken by a
public employee. Compare G. L. c. 258, § 10(j) with § 10(j)(2) and
§ 10(j)(4).
13

The complaint merely alleges that VOAMA was a “not-forprofit corporate entity,” Compl. § 9, and a “support contractor
vendor under agreement with DYS and the EOHHS,” id. ¶ 22.
See also id. ¶ 78.
14

14a

ORDER
The Commonwealth Defendants’ motion to
dismiss is ALLOWED, and the claims against them
in Counts II, IV, and IX are hereby ORDERED
dismissed.
/s/ Karen F. Green
Karen F. Green
Justice of the Superior Court
October 4, 2017

15a

APPENDIX B
NOTICE: All slip opinions and orders are subject to
formal revision and are superseded by the advance
sheets and bound volumes of the Official Reports. If
you find a typographical error or other formal error,
please notify the Reporter of Decisions, Supreme
Judicial Court, John Adams Courthouse, 1
Pemberton Square, Suite 2500, Boston, MA, 021081750; (617) 557-1030; SJCReporter@sjc.state.ma.us
18-P-1353

Appeals Court

MARIANNE BAPTISTE1 & another2 vs.
EXECUTIVE OFFICE OF HEALTH AND HUMAN
SERVICES & others.3
No. 18-P-1353.
Suffolk.

December 4, 2019. - February 28, 2020.
Present: Meade, Shin, & Singh, JJ.

Constitutional Law. Civil Rights, Supervisory
liability,
Immunity
of
public
official.
Massachusetts
Tort
Claims
Act.
Governmental Immunity.
Commonwealth,
Claim against,Liability for tort. Department
of Youth Services.
Individually and as legal guardian and next friend of Gregory
Williams, Jr.
1

2

Gregory Williams, Sr.

Secretary of the Executive Office of Health and Human
Services; Department of Youth Services; Peter Forbes,
individually and as Commissioner of the Department of Youth
Services; and John Hughes, individually and as regional director
of the Department of Youth Services.
3

16a

Civil action commenced in the Superior Court
Department on April 15, 2016.
A motion to dismiss was heard by Karen F.
Green, J.
Ira H. Zaleznik for the plaintiffs.
Katherine B. Dirks,
General, for the defendants.

Assistant

Attorney

Philip T. Tierney, for Douglas K. Chin, was
present but did not argue.
MEADE, J. The plaintiffs, Marianne Baptiste
and Gregory Williams, Sr., brought this action to
recover damages against the defendants, the
Massachusetts Executive Office of Health and
Human Services (HHS), the Department of Youth
Services (DYS), and certain of their employees4 after
a DYS-committed juvenile injured their son, Gregory
Williams, Jr. (Williams),5 while he was in DYS
custody at the Casa Isla Short-Term Treatment and
Revocation Center (Casa Isla). As pertinent here, the
plaintiffs asserted three claims: (1) a claim, pursuant
to 42 U.S.C. § 1983, against DYS Commissioner Peter
Forbes and DYS Regional Director John Hughes in
their individual capacities (collectively, DYS
individual defendants), for failure to provide
adequate medical care in violation of the Eighth and
Fourteenth Amendments to the United States
Constitution; (2) a negligence claim, pursuant to G. L.
c. 258, § 2, against HHS, the Secretary of HHS, and
DYS; and (3) a claim pursuant to G. L. c. 231, § 85X,
Also named in the complaint are Douglas Chin and Volunteers
of America of Massachusetts, Inc. (VOA), and certain of its
employees. They are not parties to this appeal. See note 7, infra.
4

For the sake of clarity, we shall refer to Gregory Williams, Jr.,
as “Williams,” and to his father as “GregoryWilliams, Sr.”
5

17a

against all of the defendants for Baptiste and Gregory
Williams, Sr.’s loss of consortium. Defendants HHS,
the Secretary of HHS, DYS, DYS’s Commissioner,
and
DYS’s
Regional
Director
(collectively,
Commonwealth defendants) brought a motion to
dismiss pursuant to Mass. R. Civ. P. 12 (b) (6), 365
Mass. 754 (1974).6 A Superior Court judge allowed
the motion, and a separate and final judgment
entered for the Commonwealth defendants pursuant
to Mass. R. Civ. P. 54 (b), 365 Mass. 820 (1974).7 The
plaintiffs have appealed. We affirm.8
Background.9 1. The program. Casa Isla was
a program for juvenile males located in a facility (now
closed) on Long Island in Boston Harbor. Casa Isla
was operated by Volunteers of America of
Massachusetts, Inc. (VOA), a nonprofit entity under
contract with DYS to operate youth residential
programs. VOA also operated a separate residential
drug and alcohol recovery program for juvenile males
on Long Island known as “Project Rebound.” The two
programs were housed in separate facilities.

Although certain unnamed DYS employees were also identified
as defendants in each of the above counts, the motionto dismiss
was not brought on their behalf.
6

Neither VOA nor Chin was a party to the Commonwealth
defendants’ motion to dismiss; VOA and Chin remain defendants
in the plaintiffs’ suit.
7

In the Superior Court, the parties agreed that the loss of
consortium claim is entirely derivative of the § 1983 and
negligence claims; accordingly, we do not discuss it separately.
8

The facts provided herein are derived from the complaint,which
we treat as true for purposes of this appeal. See Bell Atl. Corp.
v. Twombly, 550 U.S. 544, 555 (2007); Iannacchino v. Ford Motor
Co., 451 Mass. 623, 636 (2008).
9

18a

On May 21, 2012, Williams was adjudged a
youthful offender, and was committed to DYS’s
custody and care pursuant to G. L. c. 119, § 58 (c). On
March 25, 2013, following a series of placements,
Williams was transferred to Casa Isla to undergo
approximately three months of treatment.
2.
The assault. On the morning of April
19, 2013, Douglas Chin, a seventeen year old resident
of Project Rebound, said he wanted to get “kicked out”
of Project Rebound and that he wanted to punch
someone so he would be returned to Pembroke
House.10 Later that day, Chin and Williams
participated in a flag football game between Casa Isla
residents and Project Rebound residents. Two Casa
Isla staff members were supervising the game, in
which approximately twenty residents were
participating.
During the football game, at approximately
12:00 P.M., Chin ran toward Williams, who was
looking in a different direction, and repeatedly struck
him with a closed fist on the left side of his throat and
jaw. Prior to the attack, Williams and Chin had not
exchanged words and did not know one another. Two
Casa Isla staff members intervened and stopped the
attack; the football game was suspended, and the
Casa Isla residents were instructed to proceed to
lunch.
3.
Symptoms and injury.
At lunch
immediately following the game and on two occasions
thereafter, Williams complained of a headache to
The plaintiffs also allege that Chin said that he was going to
attack the “big one,” referring to Williams. However, the
complaint does not allege that these statements were made to
VOA staff, or that VOA knew of the statements at the time of the
attack.
10

19a

Casa Isla staff.11 A VOA staff member gave him
ibuprofen. No one took Williams to see the nurse on
staff or to the hospital. Between 3:35 P.M. and 4:00
P.M., Williams took a shower at the suggestion of
VOA staff members, after which he reported feeling
better. At approximately 5:00 P.M., Williams told a
staff member that, in addition to his headache, he also
was experiencing severe pain on his right side, and
asked to see a nurse. Residents reported that between
4:15 P.M. and 5:00 P.M., Williams started
complaining that he could not feel his legs. The VOA
staff member noted that Williams was experiencing
facial asymmetry, right side weakness, and trouble
speaking. The staff member contacted Boston
Emergency Medical Services (Boston EMS) around
5:10 or 5:15 P.M. Boston EMS arrived at 5:40 P.M.
and transported Williams to Boston Medical Center.
Williams suffered a traumatic carotid artery
dissection andocclusion resulting in a middle cerebral
artery stroke, seizures, and cerebral edema. As a
result, he now has severe and permanent brain
damage. Williams currently resides in a residential
program and requires twenty-four hour care.
4.
VOA. For approximately twenty years,
VOA had been a support contract vendor under
agreement with DYS and HHS, which were
responsible for the oversight of VOA. VOA’s contract
with DYS required VOA to comply with all applicable
provisions of law relative to the care of clients and to
implement policies and procedures that are equal to
or better than those of DYS. At the time of the April
19, 2013 assault, DYS regulations then in effect
included: a requirement that “[a]ll facility personnel
responsible for the care and custody of clients shall be
11

The complaint does not allege to whom Williams complained.

20a

trained in emergency first-aid procedures,” 109 Code
Mass. Regs. § 11.26(1) (1993); authorization for the
provision of medical care in medical emergencies, see
109 Code Mass. Regs. § 11.04(3)(1993) (“When there
is a medical emergency, as determined by any medical
provider, no one’s consent is required in order to allow
a client to receive necessary medical care”); and a
requirement that each facility administrator “shall
develop written plans and procedures . . . for the
secure storage and controlled administration of all
medications and drugs.”
109 Code Mass. Regs.
§ 11.28(2) (1993).
In 2002, DYS issued a policy on “Use of Over
the Counter (OTC) Medications” that permits
nonmedical staff to administer nonprescription
medications under specific conditions, such as when a
resident’s medical complaint is covered by standing
orders, i.e., a “standard of treatment for each patient
for agiven condition [that is] prepared and signed by
a qualified health staff person.”
5.
The audits. The complaint alleges that
the DYS Commissioner and the Regional Director
disregarded VOA’s noncompliance with safety
requirements. In February 2013, DYS conducted a
program compliance review of Casa Isla and
determined that Casa Isla’s director and assistant
director were not in compliance with required firstaid training and certifications. However, the
plaintiffs’ complaint does not allege that Casa Isla’s
director or assistant director had any involvement in
Williams’s care on April 19, 2013. DYS had also
documented noncompliance with required first-aid
training and certifications in 2010, 2012, and 2013,
but the complaint does not allege that anyone
involved in Williams’s care on April 19, 2013, lacked
first-aid training and certifications.
21a

A postassault, 2014 audit of Casa Isla
conducted by DYS confirmed that several staffers had
failed to attend some required trainings, and also
reported documentation deficiencies. Casa Isla’s log
of trainings and certifications does not indicate that
“OTC Medication Training” or equivalent training
was provided to staff. However, the complaint does
not allege that any of the individuals who did not
attend the trainings were involved in Williams’s care
on April 19, 2013.
Discussion. 1. Standard of review. We review
the allowance of a rule 12 (b) (6) motion to dismiss de
novo.
A.L. Prime Energy Consultant, Inc. v.
Massachusetts Bay Transp. Auth., 479 Mass. 419, 424
(2018). We accept “the facts alleged in the complaint
as true and draw[] all reasonable inferences in the
plaintiff[s’] favor.” Edwards v. Commonwealth, 477
Mass. 254, 260 (2017). However, “[w]e do not regard
as ‘true’ legalconclusions cast in the form of factual
allegations.” Id., quoting Leavitt v. Brockton Hosp.,
Inc., 454 Mass. 37, 39 n.6 (2009). To survive a motion
to dismiss, the facts alleged must“‘plausibly suggest[]
(not merely [be] consistent with)’ an entitlement to
relief.” Iannacchino v. Ford Motor Co., 451 Mass.
623, 636 (2008), quoting Bell Atl. Corp. v. Twombly,
550 U.S. 544, 557 (2007). “The plausibility standard
is not akin toa ‘probability requirement,’ but it asks
for more than a sheer possibility that a defendant has
acted unlawfully” (citation omitted).
Ashcroft v.
Iqbal, 556 U.S. 662, 678 (2009).
2. Supervisory liability under § 1983. a.
Underlying constitutional violation. Title 42 U.S.C.
§ 1983 (2012) provides in relevant part:
“Every person who, under color of any
statute, ordinance, regulation, custom,
22a

or usage, of any State . . . subjects, or
causes to be subjected, any citizen of the
United States or other person within the
jurisdiction thereof to the deprivation of
any rights, privileges, or immunities
secured by the Constitution and laws,
shall be liable to the party injured in an
action at law, suit in equity, or other
proper proceeding for redress.”
Section 1983 is “not itself a source of substantive
rights, but merely provides a method for vindicating
federal rights elsewhere conferred” (quotation and
citation omitted). Graham v. Connor, 490 U.S. 386,
393-394 (1989).
Governmental actors “are responsible only for
‘their ownillegal acts’” (emphasis omitted). Connick
v. Thompson, 563 U.S. 51, 60 (2011), quoting
Pembaur v. Cincinnati, 475 U.S. 469, 479 (1986).
However, they may be liable under § 1983 if the
governmental actors themselves “subject[]” a person
to a deprivation of rights or “cause[]” a person “to be
subjected” to such deprivation.
See Monell v.
Department of Social Servs. of the City of N.Y., 436
U.S. 658, 692 (1978). In other words, forpurposes of
§ 1983, agency officials “may not be held liable forthe
unconstitutional conduct of their subordinates under
a theory of respondeat superior.” Iqbal, 556 U.S. at
676. Of course, supervisory liability itself is premised
on there being an underlying constitutional violation
of the plaintiff’s rights by agency subordinates. The
existence of an Eighth Amendment violation must be
evaluated before determining whether the agency
officials were deliberately indifferent to a plaintiff’s
serious medical needs, and whether there is a direct
causal link between an agency policy or custom and
the constitutional deprivation. See Zingg v.
23a

Groblewski, 907 F.3d 630, 635 (1st Cir. 2018); Pineda
v. Toomey, 533 F.3d 50, 54 (1st Cir. 2008). See also
Rivera v. R.I., 402 F.3d 27, 39 (1st Cir. 2005) (§ 1983
liability for failure to train or for inadequately
training employees premised on underlying
constitutional violation of plaintiff’s rights [citation
omitted]); Maldonado-Denis v. Castillo-Rodríguez, 23
F.3d 576, 581-582 (1st Cir. 1994) (to establish
supervisory liability, plaintiff must first show
underlying constitutional violation).
Here, the plaintiffs claim that the underlying
constitutional violation was that, in violation of the
Eighth Amendment, the VOA staff members provided
inadequate medical care to Williams, who was in DYS
custody. However, the Eighth Amendment does not
protect against merely inadequate medical care.
Rather, it protects against deliberate indifference to a
serious medical need, constituting an “unnecessary
and wanton infliction of pain” (citation omitted).
Estelle v. Gamble, 429U.S. 97, 104 (1976).
Eighth Amendment claims have both an
objective component and a subjective component.
Zingg, 907 F.3d at 635.
Here, the objective
component requires the plaintiffs to prove that
Williams had a medical need “that [had] been
diagnosed by a physician as mandating treatment, or
one that [was] so obvious that even a lay person would
easily recognize the necessity for a doctor’s attention”
(citation omitted). Kosilek v. Spencer,774 F.3d 63, 82
(1st Cir. 2014). “The subjective component requires
the plaintiff[s] to show that [VOA employees], in
treating [Williams’s] medical needs, possessed a
sufficiently culpable state of mind. That state of
mind is one that amounts to deliberate indifference to
[Williams’s] health or safety.” Zingg, supra.
To
establish a deliberately indifferent state of mind, the
24a

plaintiffs must “provide evidence that the [VOA
employees] had actual knowledge of impending harm,
easily preventable, . . . and yet failed to take the steps
that would have easily prevented that harm. Such a
showing may be made by demonstrating that the
defendant[s] provided medical care that was so
inadequate as to shock the conscience, . . . or, put
otherwise, that was so clearly inadequate as to
amount to a refusal to provide essential care”
(quotations and citations omitted). Id.
However, “an inadvertent failure to provide
adequate medical care cannot be said to constitute an
unnecessary and wanton infliction of pain or to be
repugnant to the conscience of mankind” (quotations
omitted). Estelle, 429 U.S. at 105-106. That is, an
accident or mere negligence that produces pain and
suffering cannot by itself be characterized as a
wanton infliction of unnecessary pain.
Here, as alleged, when Williams complained of
a headache, VOA staff gave him ibuprofen but did not
refer him to medical services for assessment. This
does not suffice as an allegation that VOA had actual
knowledge of any easily preventable, impending harm
to Williams, “and yet failed to take the steps that
would have easily prevented that harm.” Zingg, 907
F.3d at 635. Instead, the plaintiffs’ allegations
amount to no more than negligence, which does not
rise to the level of a constitutional violation. See
Estelle, 429 U.S. at 106; Braga v. Hodgson, 605 F.3d
58, 61 (1st Cir. 2010).
b. Deliberate indifference.
Supervisory
liability under § 1983 is different in kind from
vicarious liability. That is, “[a]lthough a supervisor
need not personally engage in the subordinate’s
misconduct in order to be held liable, his own acts or
omissions must work a constitutional violation.”
25a

Parker v. Landry, 935 F.3d 9, 15 (1st Cir. 2019). See
Iqbal, 556 U.S.at 676. “Facts showing no more than a
supervisor’s
mere
negligence
vis-à-vis
his
subordinate’s misconduct are not enough to make out
a claim of supervisory liability.” Parker, supra. “At a
minimum, the plaintiff must allege facts showing that
thesupervisor’s conduct sank to the level of deliberate
indifference.”
Id.
“A showing of deliberate
indifference has three components: ‘the plaintiff must
show “(1) that the officials had knowledge of facts,
from which (2) the official[s] can draw the inference
(3) that a substantial risk of serious harm exists.”’”
Id., quoting Guadalupe-Báez v. Pesquera, 819 F.3d
509, 515 (1st Cir. 2016). See Board of Comm’rs of
Bryan County, Okla. v. Brown, 520 U.S. 397, 410
(1997) (“‘[d]eliberate indifference’ is a stringent
standard of fault, requiring proof that a[n agency
employee] disregarded a known or obvious
consequence of his action”).
Even if we were to assume that the action or
inaction by the VOA employees violated the Eighth
Amendment, the motion judge properly found that
the plaintiffs failed to allege sufficient facts to suggest
that the DYS individual defendants were on notice of,
and were deliberately indifferent to, the existence of
a substantial risk of serious harm. As the judge held,
“[t]he plaintiffs allege only that[, as a result of the
2010, 2012, and 2013 audits,] the DYS [individual
d]efendants were aware of VOA[]’s noncompliance
with the requirement that all facility personnel
responsible for the care and custody of youth have
emergency first-aid training, as set forth in 109 Code
Mass. Regs. § 11.26 . . . .” However, as the judge held,
knowledge of noncompliance with a single safety
regulation “doesnot plausibly suggest that the DYS
[individual d]efendants were on notice” of the
26a

existence of a substantial risk of serious harm or that
they were deliberately indifferent to such a risk.See
Ramirez-Lluveras v. Rivera-Merced, 759 F.3d 10, 2022 (1st Cir. 2014). See also Parker, 935 F.3d at 15
(“isolated instances of a subordinate’s constitutional
violations . . . will not clear the causation bar”
[quotation and citation omitted]).
Furthermore, the plaintiffs do not allege that
the DYS individual defendants had any involvement
with VOA or the Casa Isla program, or more
specifically, with medicine administration policies or
staff members’ training and certification records.
Although the plaintiffs allege that DYS had identified
deficiencies in VOA’s certifications and training, they
do not allege that the DYS individual defendants were
aware of this. The plaintiffs allege that VOA did not
adhere to a DYS policy on the controlled
administration of medications, but they do not allege
that the DYS individual defendants were aware of, let
alone encouraged, condoned, or acquiesced to, this
alleged nonadherence. See Connick, 563 U.S. at 61
([“a supervisor’s] culpability for a deprivation of rights
is at its most tenuous where a claim turns on a failure
to train”). See also OklahomaCity v. Tuttle, 471 U.S.
808, 822 (1985) (alleged policy of inadequate training
“far more nebulous, and a good deal further removed
from the constitutional violation, than was the policy
in Monell”).
Finally, the plaintiffs do not allege that the
DYS individual defendants had notice of any prior
failures by VOA staff members to monitor residents’
injuries or symptoms, which might have indicated a
risk of a violation of Williams’s Eighth Amendment
rights. More directly, the plaintiffs do not allege that
the DYS individual defendants engaged in any
“supervisory
encouragement,
condonation
or
27a

acquiescence”
that
amounted
to
deliberate
indifference to any VOA conduct. Pineda, 533 F.3d
at 54. The DYS individual defendants cannot be
deliberately indifferent to an omission or deficiency in
a first-aid training program of which they had no
knowledge.
c. Affirmative link. Finally, for a supervisor to
be held liable for a subordinate’s constitutional
violation, there must be “an affirmative link” between
the subordinate’s behavior and the supervisor’s action
or inaction “such that the supervisor’s conduct led
inexorably to the constitutional violation” (citation
omitted). Morales v. Chadbourne, 793 F.3d 208, 221
(1st Cir. 2015). See Guadalupe-Báez, 819 F.3d at 515
(affirmative link requires conduct that can be
“characterized
as supervisory
encouragement,
condonation, or acquiescence or gross negligence
amounting to deliberate indifference” [citation
omitted]).
Here, the plaintiffs failed to allege any causal
connection, let alone a strong one, between VOA’s
alleged noncompliance with the first-aid training
requirements of 109 Code Mass. Regs. § 11.26 and
Williams’s injuries. As the motion judge held, the
plaintiffs do “not allege that any facility personnel
who supervised [Williams] on the day of the incident
had not received the required emergency first aid
training. [Rather, they] merely allege generally that
the DYS [individual] defendants were on notice that
some VOA[] staff had not received such training in the
past and that the failure of VOA[] staff members to
administer proper emergency first aid treatment on
the day of the incident worsened [Williams’s] injuries.
[In other words,] the plaintiffs have failed to allege
any affirmative link between the DYS [individual
d]efendants’ alleged conduct, and the alleged
28a

violation of [Williams’s] Eighth Amendment right to
adequate medical care.” See Guadalupe-Báez, 819
F.3d at 515; Maldonado-Denis, 23 F.3d at 582. The
§ 1983 count of the complaint against the individual
DYS defendants was properly dismissed.
3. Immunity from negligence claim under
public duty rule. The plaintiffs also brought a
negligence claim, pursuant to the Massachusetts Tort
Claims Act (act), G. L. c. 258, § 2, against HHS and
DYS.12 This claim is actually against the
Commonwealth,and it too was properly dismissed.
The act is a limited waiver of the
Commonwealth’s sovereign immunity. See Cormier
v. Lynn, 479 Mass. 35, 39 (2018). Within the act are
a variety of exclusions from that limited waiver. One
such exclusion can be found in G. L. c. 258, § 10(j),
which provides the Commonwealth immunity from
suit for
“any claim based on an act or failure to
act to prevent or diminish the harmful
consequences of a condition or situation,
including the violent or tortious conduct
of a third person, which is not originally
caused by the public employer or any
other person acting on behalf of the
public employer.”
See Kent v. Commonwealth, 437 Mass. 312, 317
(2002).
Section 10(j) has been described as a
“‘statutory public duty rule providing governmental
immunity,’ Carleton v. Framingham, 418 Mass. 623,
The plaintiffs also named the Secretary of HHS, in her official
capacity, as a defendant in this count, but concede that she is
immune from liability under c. 258. The complaint did not name
her as a defendant in her individual capacity.
12

29a

627 (1994), the purpose of which is to ‘provide some
substantial measure of immunity from tort liability to
government employers.’ Brum v. Dartmouth, [428
Mass. 684,] 695 [(1999)].” Kent, supra at 317-318.
The Supreme Judicial Court has construed the
“original cause” language to mean an affirmative act
(not a failure to act) by a public employer that
“materially contributed to creating the specific
‘condition or situation’ that resulted in the harm”
inflicted by a third party. Cormier, supra at 40,
quoting Kent, supra at 319. In other words, § 10(j)
provides immunity from tort liability to public
employers “for a public employer’s act or failure to act
to prevent harm from the wrongful conduct of a third
party unless the condition or situation was ‘originally
caused’ by the public employer.” Cormier, supra,
citing Brum, supra at 692, 695.
Here, as the plaintiffs expressly pleaded,
Williams’s condition or situation resulted “from
Chin’s closed-fist strike to the left side of Mr.
Williams’[s] neck.” The two had never met, and the
attack was unprovoked. The plaintiffs do not allege
that Commonwealth employees committed any actual
affirmative act that led to Chin’s assault on Williams,
nor do they claim that DYS had any interactions with
or knowledge of Chin before the assault. Rather, the
plaintiffs repeatedly allege conduct that amounts to
failure to prevent the injury caused by a third party
and characterize it as an alleged failure by VOA staff
to recognize the severity of Williams’s injury and an
alleged failure by DYS to provide more monitoring
and oversight of VOA’s program at Casa Isla.13 These
Examples of allegations in the complaint include the following:
“Williams was neither sent to Boston Medical Center for a
medical assessment, nor provided with any medical treatment
following the attack”; DYS “failed to prepare any written policy
13

30a

allegations, however, are exactly the type of failure to
prevent or diminish the harmful consequences of
negligence claims that are barred by § 10(j).14 To hold
otherwise would be to “adopt an interpretation of
[§ 10(j)] that construes the words ‘originally caused’
so broadly as to encompass the remotest causation
and preclude immunity in nearly all circumstances.”
Brum, 428 Mass. at 695.
See Jane J. v.
Commonwealth, 91 Mass. App. Ct. 325, 330 (2017)
(hospital’s failure to segregate patients by gender not
original cause of female patient’s rape by male
patient); Jacome v. Commonwealth, 56 Mass. App. Ct.
486, 490 (2002) (failures to close beach, post warning
signs, and failure of lifeguards to remain on duty
during scheduled shift not original cause of
or procedure detailing criteria or assessment protocols for
evaluating whether . . . or not a resident is in need of a medical
assessment by trained medical professionals”; DYS “failed . . . to
ensure . . . Williams was provided adequate protection from
harm by fellow involuntarily confined youths and adequate
medical care”; DYS “failed . . . to ensure that VOA[] complied
with all of its legal obligations,” including certification and
training requirements; and VOA did not have a written policy for
the administration of over-the-counter medications.
The plaintiffs’ reliance on Devlin v. Commonwealth, 83 Mass.
App. Ct. 530 (2013), is misplaced.
In that case, a civilly
committed patient was assaulted by a criminal convict working
at the facility. We concluded that § 10(j) did not bar the claim
because an original cause of the assault was the
Commonwealth’s “affirmative decision to allow convicted
inmates[, who come from a higher-risk population,] to work in an
area where civilly committed individuals were housed and
treated . . . .” Id. at 535. Here, however, the plaintiffs do not
allege that DYS had notice that Chin came from a higher-risk
population than Williams, or any other basis for asserting that
DYS had notice of the risk of an assault. In fact, as alleged,
Williams, as a youthful offender, was a higher-risk resident than
Chin, who was merely enrolled in a civil drug and alcohol
recovery program.
14

31a

drowning). Finally, the plaintiffs claim that two
exceptions to governmental immunity found in G. L.
c. 258, § 10 (j) (2), (4), defeat HHS and DYS’s
immunity. The two provisions are as follows:
“(2) any claim based upon the
intervention of a public employee which
causes injury to the victim or places the
victim in a worse position than he was in
before the intervention; and
...
“(4) any claim by or on behalf of a patient
for
negligent medical
or
other
therapeutic treatment received by the
patient from a public employee.”
G. L. c. 258, § 10 (j) (2), (4). The plaintiffs claim that
VOA’s response on April 19, 2013, comes within the
purview ofboth of the above exceptions, and thus that
HHS and DYS are liable for that response. We
disagree.
According to the complaint, VOA is an
independent contractor. The plaintiffs do not claim
that VOA employees are “public employees,” as
defined by G. L. c. 258, § 1, such that their actions fall
within the exceptions of § 10(j) (2), (4). Nor does the
complaint allege, as the motion judge properly held,
any facts that plausibly suggest that any VOA staff
member was a public employee. Because, within the
meaning of the act,“an independent contractor is not
a public employee,” Chiao-YunKu v. Framingham, 62
Mass. App. Ct. 271, 274 (2004); Thornton v.
Commonwealth, 28 Mass. App. Ct. 511, 513 (1990),
and because the complaint does not allege that DYS
had “retained control” over any part of the work
covered by VOA’s contract, see Chiao-Yun Ku, supra
32a

at 274-275, the exceptions to governmental immunity
do not apply.
Judgment affirmed.

33a

APPENDIX C
From:
To:
Subject:
Date:

SJCCommClerk@sjc.state.ma.us
Slean, Brendan
FAR-27501 - Notice: FAR denied
Wednesday, September 30, 2020
6:02:18 PM

Supreme Judicial Court for
the Commonwealth of Massachusetts
RE: Docket No. FAR-27501
MARIANNE BAPTISTE & another
vs.
MASS EXECUTIVE OFFICE OF HEALTH AND
HUMAN SERVICES & others
Suffolk Superior Court No. 1684CV01248
A.C. No. 2018-P-1353
NOTICE OF DENIAL OF APPLICATION FOR
FURTHER APPELLATE REVIEW
The plaintiffs’ application for further appellate
review is denied. We decline to address the issue of
whether the Eighth Amendment “deliberate
indifference” standard governs allegations that State
officials provided inadequate medical care to a
person held in juvenile detention after being
adjudged a youthful offender under G. L. c. 119,
s. 58 (c), or whether, as the plaintiffs argue for the
first time in their application, a less demanding due
process standard applies. This issue was neither
raised in nor decided by the Appeals Court.
34a

Francis V. Kenneally, Clerk
Dated: September 30, 2020
To:
Ira H. Zaleznik, Esquire
John Tennaro, Esquire
Brendan Slean, Esquire
Katherine B. Dirks, A.A.G.
Kevin M. Sullivan, Esquire
Philip T. Tierney, Esquire
Susan E. Devlin, Esquire
Child Advocacy Program of the Harvard Law School
Daniel Louis McFadden, Esquire

35a

APPENDIX D
From:
To:
Subject:
Date:

SJCCommClerk@sjc.state.ma.us
Slean, Brendan
FAR-27501 - Notice of Docket Entry
Monday, November 23, 2020 6:28:27
PM

Supreme Judicial Court for
the Commonwealth of Massachusetts
RE: No. FAR-27501
MARIANNE BAPTISTE & another
vs.
MASS EXECUTIVE OFFICE OF HEALTH AND
HUMAN SERVICES & others
NOTICE OF DOCKET ENTRY
Please take note that on November 23, 2020, the
following entry was made on the docket of the
above-referenced case:
DENIAL of petition to reconsider denial of FAR
application.
Francis V. Kenneally Clerk
Dated: November 23, 2020
To:
Ira H. Zaleznik, Esquire
John Tennaro, Esquire
Brendan Slean, Esquire
Katherine B. Dirks, A.A.G.
Kevin M. Sullivan, Esquire
Philip T. Tierney, Esquire
Susan E. Devlin, Esquire
Child Advocacy Program of the Harvard Law School
Daniel Louis McFadden, Esquire
36a

APPENDIX E
42 U.S. Code § 1983. Civil action for deprivation of
rights
Every person who, under color of any statute,
ordinance, regulation, custom, or usage, of any State
or Territory or the District of Columbia, subjects, or
causes to be subjected, any citizen of the United
States or other person within the jurisdiction thereof
to the deprivation of any rights, privileges, or
immunities secured by the Constitution and laws,
shall be liable to the party injured in an action at law,
suit in equity, or other proper proceeding for redress,
except that in any action brought against a judicial
officer for an act or omission taken in such officer’s
judicial capacity, injunctive relief shall not be granted
unless a declaratory decree was violated or
declaratory relief was unavailable. For the purposes
of this section, any Act of Congress applicable
exclusively to the District of Columbia shall be
considered to be a statute of the District of Columbia.
(R.S. § 1979; Pub. L. 96–170, § 1, Dec. 29, 1979, 93
Stat. 1284; Pub. L. 104–317, title III, § 309(c), Oct. 19,
1996, 110 Stat. 3853.)

37a

Chapter 119
Section 53

DELINQUENT CHILDREN; LIBERAL
CONSTRUCTION;
NATURE
OF
PROCEEDINGS

Section 53. Sections fifty-two to sixty-three, inclusive,
shall be liberally construed so that the care, custody
and discipline of the children broughtbefore the court
shall approximate as nearly as possible that which
they should receive from their parents, and that, as
far as practicable, they shall be treated, not as
criminals, but as children in need of aid,
encouragement and guidance. Proceedings against
children under said sections shall not be deemed
criminal proceedings.
Chapter 119
Section 58

ADJUDICATION AS DELINQUENT
CHILD OR YOUTHFUL OFFENDER

Section 58. At the hearing of a complaint against a
child the court shall hear the testimony of any
witnesses who appear and take such evidence relative
to the case as shall be produced. If the allegations
against a child are proved beyond a reasonable doubt,
he may be adjudged a delinquent child, or in lieu
thereof, the court may continue the case without a
finding and, with the consent of the child and at least
one of the child’s parents or guardians, place said
child on probation; provided, however, that any such
probation may be imposed until such child reaches
age eighteen or age nineteen in the case of a child
whose case is disposed of after he has attained his
eighteenth birthday or age 20 in the case of a child
whose case is disposed of after he has attained his
nineteenth birthday; provided further, that a
38a

complaint alleging a child to be a delinquent child by
reason of having violated the provisions of section
13B, 13B1/2, 13B3/4, section 22A, 22B, 22C, 23, 23A,
section 23B or section 50 of chapter 265 shall not be
placed on file or continued without a finding. Said
probation may include a requirement, subject to
agreement by the child and at least one of the child’s
parents or guardians, that the child do work or
participate in activities of a type and for a period of
time deemed appropriate by the court.
If a child is adjudicated a delinquent child on a
complaint, the court may place the case on file or may
place the child in the care of a probation officer for
such time and on such conditions as it deems
appropriate or may commit him to the custody of the
department of youth services, but the probationary or
commitment period shall not be for a period longer
than until such child attains the age of eighteen, or
nineteen in the case of a child whose case is disposed
of after he has attained his eighteenth birthday or age
20 in the case of a child whose case is disposed of after
he has attained his nineteenth birthday.
If a child is adjudicated a youthful offender on an
indictment, the court may sentence him to such
punishment as is provided by law for the offense. The
court shall make a written finding, stating its reasons
therefor, that the present and long-term public safety
would be best protected by:
(a)

a sentence provided by law; or

(b)
a combination sentence which shall be a
commitment to the department of youth services until
he reaches the age of twenty-one, and an adult
sentence to a house of correction or to the state prison
as is provided by law for the offense. The adult
39a

sentence shall be suspended pending successful
completion of a term of probation, which shall include,
but not be limited to, the successful completion of the
aforementioned commitment to the department of
youth services. Any juvenile receiving a combination
sentence shall be under the sole custody and control
of the department of youth services unless or until
discharged by the department or until the age of
twenty-one, whichever occurs first, and thereafter
under the supervision of the juvenile court probation
department until the age of twenty-one and
thereafter by the adult probation department;
provided, however, that in no event shall the
aggregate sentence imposed on the combination
sentence exceed the maximum adult sentence
provided by law; or
(c)
a commitment to the department of youth
services until he reaches the age of twenty-one.
In making such determination the court shall conduct
a sentencing recommendation hearing to determine
the sentence by which the present and long-term
public safety would be best protected. At such
hearing, the court shall consider, but not be limited
to, the following factors: the nature, circumstances
and seriousness of the offense; victim impact
statement; a report by a probation officer concerning
the history of the youthful offender; the youthful
offender’s court and delinquency records; the success
or lack of success of any past treatment or
delinquency dispositions regarding the youthful
offender; the nature of services available through the
juvenile justice system; the youthful offender’s age
and maturity; and the likelihood of avoiding future
criminal conduct. In addition, the court may consider
any other factors it deems relevant to disposition. No
such sentence shall be imposed until a pre-sentence
40a

investigation report has been filed by the probation
department and made available to the parties no less
than seven days prior to sentencing.
A youthful offender who is sentenced as is provided by
law either to a state prison or to a house of correction
but who has not yet reached his eighteenth birthday
shall be held in a youthful offender unit separate from
the general population of adult prisoners; provided,
however, that such youthful offender shall be
classified at a facility other than the reception and
diagnostic center at the Massachusetts Correctional
Institution, Concord, and shall not be held at the
Massachusetts Correctional Institution, Cedar
Junction, prior to his eighteenth birthday.
If it is alleged in the complaint upon which the child
is so adjudged that a penal law of the commonwealth,
a city ordinance or a town by-law has been violated,
the court may commit such child to the custody of the
commissioner of youth services and authorize him to
place such child in the charge of any person, and, if at
any time thereafter the child proves unmanageable,
to transfer such child to that facility which in the
opinion of said commissioner, after study, will best
serve the needs of the child. The department of youth
services shall provide for the maintenance, in whole
or part, of any child so placed in the charge of any
person.
Notwithstanding any other provisions of this chapter,
a person adjudicated a delinquent child by reason of a
violation of paragraph (a), (c) or (d) of section ten or
section ten E of chapter two hundred and sixty-nine,
shall be committed to the custody of the commissioner
of youth services who shall place such child in the
custody of a facility supported by the commonwealth
for the care, custody and training of such delinquent
41a

children for a period of at least one hundred and
eighty days or until such child attains his eighteenth
birthday or his nineteenth birthday in the case of a
child whose case is disposed of after he has attained
his eighteenth birthday, whichever first occurs,
provided, however, that said period of time shall not
be reduced or suspended.
Upon the second or subsequent violation of said
paragraph (a), (c) or (d) of said section ten or ten E of
said chapter two hundred and sixty-nine, the
commissioner of youth services shall place such child
in the custody of a facility supported by the
commonwealth for the care, custody and training of
such delinquent child for not less than one year;
provided, however, that said period of time shall not
be reduced or suspended.
The court may make an order for payment by the
child’s parents or guardian from the child’s property,
or by any other person responsible for the care and
support of said child, to the institution, department,
division, organization or person furnishing care and
support at times to be stated in an order by the court
of sums not exceeding the cost of said support after
ability to pay has been determined by the court;
provided, however, that no order for the payment of
money shall be entered until the person by whom
payments are to be made shall have been summoned
before the court and given an opportunity to be heard.
The court may from time to time, upon petition by, or
notice to the person ordered to pay such sums of
money, revise or alter such order or make a new order,
as the circumstances may require.
The court may commit such delinquent child to the
department of youth services, but it shall not commit
such child to any institution supported by the
42a

commonwealth for the custody, care and training of
delinquent children or juvenile offenders.
Except in cases in which the child has attained the
age of majority, whenever a court of competent
jurisdiction adjudicates a child as delinquent and
commits the child to the department of youth services,
the court, in order to comply with the requirements
contained in the federal Adoption Assistance and
Child Welfare Act of 1980 and any amendments
thereto, shall receive evidence in order to determine
whether continuation of the child in his home is
contrary to his best interest, and whether reasonable
efforts were made prior to the commitment of the
child to the department, to prevent or eliminate the
need for removal from his home; or whether an
emergency situation existed making such efforts
impossible. No such determination shall be made
unless the parent or guardian of the delinquent shall
have been summoned before the court and, if present,
given an opportunity to be heard. The court, in its
discretion, may make its determinations concerning
said best interest and reasonable efforts in written
form, but in the absence of a written determination to
the contrary, it shall be presumed that the court did
find that continuation of the child in his home was
contrary to his best interest and that reasonable
efforts to prevent or eliminate the need for removal of
the child from his home did occur. Nothing in this
section shall diminish the department’s responsibility
to prevent delinquent acts and to protect the public
safety.

43a

